Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK
COUNTY OF NEW YORK

)
) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 9/7/2021 deponent caused to be served 3 copy(s) of the within
Brief of U.S. Citizens for Equal Protection, Inc.
as Amicus Curiae in Support of Respondent
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

Brian H. Fletcher,
Acting Solicitor General
OFFICE OF THE
SOLICITOR GENERAL
Attorneys for Petitioner
950 Pennsylvania Avenue, NW
Washington, DC 20530
Phone: 202-514-2203

Hermann Ferré
CURTIS, MALLET-PREVOST,
COLT & MOSLE LLP
Attorneys for Respondent
101 Park Avenue
New York, NY 10178
Phone: 212-696-6000

Sworn to me this
Tuesday, September 7, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2025

Case Name: USA v. José Luis Vaello-Madero
Docket/Case No: 20-303
Index:

